No. 19-329
IN THE

Supreme Court of the United States
_______________________________

WINSTON-SALEM INDUSTRIES FOR THE BLIND,
Petitioner,
v.
UNITED STATES OF AMERICA;
PDS CONSULTANTS, INC.,
Respondents.
_______________________________

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
_______________________________

BRIEF OF AMICUS CURIAE
AMERICAN COUNCIL OF THE BLIND
IN SUPPORT OF PETITIONER
_______________________________

Thomas M. Bondy
Counsel of Record
Peter E. Davis
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-8400
tbondy@orrick.com
Counsel for Amicus Curiae

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ..................................... ii
INTRODUCTION AND INTEREST OF
AMICUS CURIAE .............................................. 1
SUMMARY OF ARGUMENT................................... 3
ARGUMENT ............................................................. 4
I.

The Blind And Visually Impaired Face
Unique Challenges In Finding And
Keeping Steady Employment............................. 4

II. The AbilityOne Program Offers Stable
Employment And Rehabilitation Services
To Thousands Of Blind And Visually
Impaired Persons................................................ 8
A. AbilityOne is the largest and most
successful provider of employment to
the blind and visually impaired in the
United States. ............................................. 10
B. AbilityOne nonprofits provide crucial
rehabilitation and other services to
their communities. ...................................... 14
III. The Federal Circuit’s Decision Undercuts
AbilityOne, Upending The Lives Of Blind
And Visually Impaired People Around The
United States. ................................................... 16
CONCLUSION ........................................................ 19

ii
TABLE OF AUTHORITIES
Page(s)
Statutes
Javits-Wagner-O’Day Act, Pub. L. No.
92-28, 85 Stat. 77 (1971) ........................................8
Wagner-O’Day Act, Pub. L. No. 75-739,
52 Stat. 1196 (1938) ...............................................8
41 U.S.C. § 8501 ..........................................................9
41 U.S.C. § 8501(6)(C) .................................................9
41 U.S.C. § 8502 ..........................................................9
41 U.S.C. § 8503 ..........................................................9
41 U.S.C. § 8504(a)......................................................9
Other Authorities
Asheville’s older adults feel lucky to
have the Community Low Vision
Center, WLOS (Nov. 26, 2018),
https://tinyurl.com/y63agwmc .............................14
Richard Craver, 47 workers lose jobs
after IFB loses contract appeal,
Winston-Salem Journal (Sept. 10,
2019), https://tinyurl.com/y47b97zd ....................17
Adele Crudden & Lynn W. McBroom,
Barriers to Employment: A Survey of
Persons Who Are Visually Impaired,
93 J. Visual Impairment &
Blindness 341 (1999) .........................................5, 8

iii
John Crudele, How this NYC company
created the perfect environment for
blind workers, N.Y. Post (Feb. 11,
2019) .....................................................................11
Jessica Eley, Summer camp teaches
visually impaired teens computer
skills through adaptive software,
FOX4KC.com (June 26, 2019),
https://tinyurl.com/yxcaf57k ................................14
IFB Solutions facing loss of 76 jobs for
people who are blind, WinstonSalem Chronicle (July 25, 2019),
https://tinyurl.com/y5jrkp9s ................................17
Key Employment Statistics for People
Who Are Blind or Visually Impaired,
American Foundation for the Blind
(2017), https://tinyurl.com/yxbafepq .....................4
News Release: The Employment
Situation April 2017, Bureau of
Labor Statistics (May 5, 2017),
https://tinyurl.com/yyy974mp ...............................5
Jamie O’Mally & Karla Antonelli, The
Effect of Career Mentoring on
Employment Outcomes for College
Students Who Are Legally Blind, 110
J. Visual Impairment & Blindness
295 (2016) ...............................................................5
Andy Ober, Bosma Launches Salesforce
Training Program, Inside Indiana
Business (May 18, 2018),
https://tinyurl.com/y2xhk6ae. .............................12

iv
Patricia R. Olsen, He Operates Molding
Machines. But He Can’t See Them,
N.Y. Times (Sept. 28, 2018),
https://tinyurl.com/y7hpqkcx...............................11
Performance and Accountability Report
Fiscal Year 2018, U.S. AbilityOne
Commission (2018) .................................... 2, 10, 14
McKinley Strother, Dozens of disabled
workers face layoffs after Huntsville
flag manufacturer’s federal contract
ends, WAFF (June 28, 2019),
https://tinyurl.com/y3dv82mm ............................10
Nick Werner, Blinded in Combat,
Businessman Leads Battle for
Workplace Equality, Ball State
University Magazine (July 18,
2019), https://tinyurl.com/yxtau9rs.....................14
Lindsey Wright, Bosma Enterprises
Sues VA Over Contracting Changes,
Indiana Public Media (May 25,
2017), https://tinyurl.com/y548floo .....................17

INTRODUCTION AND
INTEREST OF AMICUS CURIAE 1
The American Council of the Blind (ACB) is a nonprofit organization that seeks to enhance the independence, security, equality of opportunity, and quality of life for all blind and visually impaired people.
Founded in 1961, ACB has 70 state chapters and affiliates and thousands of individual members spread
across the United States.
Throughout its history, the ACB has advocated
for the interests of the blind and visually impaired in
Congress and the courts. A central part of these efforts has been the promotion of employment opportunities for visually impaired persons. Together with
other disability organizations, the ACB played an important role in the passage and implementation of the
Rehabilitation Act, the Americans with Disabilities
Act, and the Randolph-Sheppard Act. The ACB has
also partnered directly with employers and rehabilitation providers to advance its mission of securing
equality of opportunity for all blind and visually impaired people.
The Federal Circuit’s decision in this case jeopardizes this mission. AbilityOne, the program at the
heart of this case, is the largest employer of blind per-

1 The parties have consented to the filing of this amicus
brief. No counsel for a party authored the brief in whole or in
part. No party, counsel for a party, or any person other than amicus curiae and their counsel made a monetary contribution intended to fund the preparation or submission of the brief.

2
sons in the United States. Performance and Accountability Report Fiscal Year 2018, U.S. AbilityOne Commission 3 (2018). Providing jobs to more than 43,000
blind and severely disabled persons, the program
plays a vital role in securing work for a group facing
immense barriers to stable employment. Id. at 21.
The Federal Circuit’s decision threatens the successes
AbilityOne has allowed many blind and visually impaired persons to attain.
ACB respectfully submits this amicus brief to explain the role AbilityOne nonprofits play in the blind
community across the United States and how the Federal Circuit’s decision endangers that role. One side
of this is empirical. In this respect, the brief will describe what the data show about challenges the blind
face finding employment, what specific part AbilityOne plays in addressing these challenges, and how
many people’s livelihoods are threatened by the Federal Circuit’s decision. The other side is more personal. As important as the data are, the stories of
individuals whose lives have been improved by the
AbilityOne program are even more compelling. And
those individuals’ lives will be upended if the Federal
Circuit’s erroneous decision stands.
This case is immensely important to blind and visually impaired persons across the United States. If
the Federal Circuit’s judgment prevails, it will have
profound and adverse consequences for persons who
are blind, visually impaired, or severely disabled, including many veterans. For these reasons, ACB urges
this Court to grant the petition for certiorari and reverse the judgment below.

3
SUMMARY OF ARGUMENT
The Court should grant review and reverse the
Federal Circuit’s decision because of the substantial
harm it would inflict on the blind community across
the United States.
I. Blind and visually impaired persons must overcome significant hurdles to find and retain steady employment. They encounter, among other obstacles,
negative employer attitudes, transportation and mobility barriers, and inadequate accommodations, as
concrete examples illustrate all too well. For these
reasons, the percentage of blind and visually impaired
persons in the workforce is barely half that of the general population and the unemployment rate is more
than twice as high.
II. Nonprofit organizations that carry out the
AbilityOne program play a key role in employing
blind and visually impaired persons and offering rehabilitation services. AbilityOne nonprofits directly
employ tens of thousands of blind and severely disabled persons across the country. And beyond direct
employment, these organizations also invest millions
of dollars earned through government contracts in
community programs ranging from vision centers to
after-school programs that train and otherwise benefit the blind.
III. The Federal Circuit’s decision threatens the
success of this program. A significant proportion of
revenue earned by nonprofits employing the blind
comes from contracts with the Department of Veter-

4
ans Affairs. These contracts are now at risk of termination. Under the ruling below, many blind and visually impaired people throughout the United States
stand to lose their jobs and their access to essential
rehabilitative and training services. For affected individuals, this is a very real, not an abstract, concern.
Only this Court’s intervention can forestall the
harmful effects of the Federal Circuit’s erroneous decision. The Court should grant review.
ARGUMENT
I.

The Blind And Visually Impaired Face
Unique Challenges In Finding And Keeping
Steady Employment.

Blind and visually impaired persons encounter
among the highest barriers to employment of any
group in the United States. As of April 2017, only 39
percent of people with vision loss ages 16 to 64 were
working or actively seeking work, and 10 percent
were unemployed. Key Employment Statistics for People Who Are Blind or Visually Impaired, American
Foundation for the Blind (2017), https://tinyurl.com/yxbafepq (summarizing data from Bureau
of Labor Statistics). During the same period, 73 percent of the general population ages 16 and above were
working or seeking work and only 4 percent were unemployed. Id. This means that visually impaired persons participate in the workforce at barely half the

5
rate of the general population, and they have an unemployment rate 2.5 times as high. 2 The employment
numbers for persons with visual impairments are
worse than for nearly any other group of adults for
which the Bureau of Labor Statistics keeps track. 3
There are many reasons for the disparity between
employment rates for the visually impaired and employment rates for the general population. Most significantly, this group faces negative employer
attitudes, limited job opportunities, transportation
and mobility barriers, and insufficient adaptive
equipment and accommodations. 4 On account of these
and other challenges, many visually impaired persons
understandably exit the labor force. Those that remain often struggle to maintain employment when
they have it or to find employment when they need it.
Crudden et al., supra, at 342-43.

2 These numbers likely understate the gap, given that the
age range in the general-population data (16 and up) is broader
than the range in the vision-impaired data (16 to 64).

News Release: The Employment Situation April 2017, Bureau of Labor Statistics 1, 4 (May 5, 2017), https://tinyurl.com/yyy974mp.
3

4 Adele Crudden & Lynn W. McBroom, Barriers to Employment: A Survey of Persons Who Are Visually Impaired, 93 J. Visual Impairment & Blindness 341, 341-42 (1999); see also Jamie
O’Mally & Karla Antonelli, The Effect of Career Mentoring on
Employment Outcomes for College Students Who Are Legally
Blind, 110 J. Visual Impairment & Blindness 295, 295-96 (2016).

6
Concrete illustrations abound. The experience of
ACB member Nimer Jaber is typical. 5 In 2013, Nimer
lost his job at HP when his contract ended. In his
words:
I was out of work for nearly six months. I tried
so hard to find work. I completed online applications. I communicated to my friends that I
was looking for employment. I applied in person. I attended inaccessible job fairs. I actively worked with Alabama’s Department of
Vocational Rehabilitation. I completed a number of interviews and answered many questions in respect of my blindness. I was even
asked how I would locate the restroom. This
was a long, drawn out, and frustrating process. Many applications were not accessible, I
was not able to move forward with a number
of job interviews because the systems the employers used were inaccessible, and I was unable to locate a suitable remote employment
opportunity for the same reason. Had I not
been receiving unemployment benefits, I am
not sure what I would have done.
After many months, Nimer eventually found another
position, and he now works with ETouch Systems as
a vendor for Google. But the challenges he faced finding employment—including transportation barriers,
inaccessible application processes, negative employer
attitudes, and the cost of assistive technologies—are
5 Each of the individuals mentioned in this brief has consented to the use of his or her name and information.

7
the same ones preventing thousands of others like
him from finding steady employment.
Rhonda Chapman’s experience was similar. After
losing her vision in just ten short days, Rhonda spent
five years searching for a job. During that time, she
completed a rehabilitation program run by Bosma Enterprises, a nonprofit that operates as part of the AbilityOne program. Her long search ended when Bosma
itself hired her to work on AbilityOne contracts.
Rhonda now manages the Independent Living Store,
which provides adaptive aids for the blind.
Lee Hartline spent ten years as a custom cabinetmaker before he lost his sight due to Retinitis Pigmentosa. No longer able to continue building
cabinets, Lee was homebound for 21 years and got by
with the support of his mother and disability benefits.
In 2014, his social worker connected him with Winston-Salem Industries for the Blind (IFB), where he
was hired to work in their Optical Department on an
AbilityOne contract. The job changed his life. In addition to his work at IFB, he now contributes to the community as Vice President for the North Carolina Deaf
Blind Associates.
Rebekah Grieb became legally blind in her early
twenties. Even though she had a college education
and had learned skills in mobility, adaptive technology, and braille, Rebekah spent several years unemployed. In a familiar story for the visually impaired,
she found that she could not make it past the first
round of face-to-face interviews, likely on account of
employers’ hesitations about hiring someone with vi-

8
sion impairments. When things were getting desperate, Rebekah learned about the Contract Closeout
Specialist position she currently holds at Alphapointe, an AbilityOne nonprofit. The job, where
she has now worked for more than one year, offered
her not just stable employment, but a role consistent
with her skills and education.
Every person’s experience differs. But the challenges Nimer, Rhonda, Lee, and Rebekah have encountered typify those faced by other visually
impaired persons. See Crudden et al., supra, at 34142. Their stories also help persons without vision impairment understand why the labor-force participation rate for this group is just 39 percent. When
employers refuse to hire, transportation is difficult to
find, and accommodations are unavailable, it is unsurprising that many blind and visually impaired persons find that work is unavailable.
II. The AbilityOne Program Offers Stable
Employment And Rehabilitation Services
To Thousands Of Blind And Visually
Impaired Persons.
The AbilityOne program dates to 1938, when Congress passed the groundbreaking Wagner-O’Day Act
to increase employment opportunities for the blind
and visually impaired. Pub. L. No. 75-739, 52 Stat.
1196 (1938). Expanded in 1971 through the JavitsWagner-O’Day Act (JWOD), the program requires
federal agencies to purchase specified products and
services from nonprofits that employ a significant
number of blind and disabled persons. Pub. L. No. 92-

9
28, §§ 1-2, 85 Stat. 77, 80 (1971) (codified at 41 U.S.C.
§§ 8501-8506).
The program is overseen by the AbilityOne Commission, comprised of 15 presidentially appointed
members. The Commission maintains a list of designated products and services and oversees two central
nonprofit organizations responsible for implementing
the program. 41 U.S.C. §§ 8501-8503. If a product or
service appears on the list, federal agencies generally
must purchase it from a designated AbilityOne nonprofit. Id. § 8504(a). To qualify as a designated nonprofit, at least 75 percent of an organization’s direct
labor hours must be performed by persons who are
blind or have severe disabilities. 41 U.S.C.
§ 8501(6)(C). Nonprofits invest the revenue from
these contracts into rehabilitation and other services
for the blind and disabled.
The AbilityOne program is among the most ambitious government efforts to expand equality of opportunity for the blind and visually impaired in U.S.
history. It works in two basic ways. First, AbilityOne
nonprofits directly employ thousands of people, many
of whom otherwise would not have stable employment
and might be collecting federal disability benefits.
Second, AbilityOne nonprofits supply rehabilitation
and job-training services to blind and visually impaired persons who wish to enter the workforce and
improve their employment prospects.
While its goals are ambitious, its means are more
quotidian. The precious opportunities the program
makes available are generated through the federal

10
procurement process, encompassing a range of products and services from janitorial supplies to call-center services. In this way, the federal government
advances the prospects of the visually impaired—both
through employment and rehabilitation and training
services—while simply buying the products and services it already needs: a win-win arrangement for all
concerned.
A. AbilityOne is the largest and most
successful provider of employment to
the blind and visually impaired in the
United States.
In 2017, AbilityOne nonprofits employed 43,831
blind and severely disabled people across the United
States. Performance and Accountability Report Fiscal
Year 2018, U.S. AbilityOne Commission 21 (2018).
More than 3,000 are blind or disabled veterans. Id. at
3.
While substantial in and of themselves, these
numbers do not fully capture the anchoring roles
many of these nonprofits play in communities across
the country. AbilityOne nonprofits have crafted
American internment flags in Huntsville, Alabama. 6
They manufacture janitorial products and military

6 McKinley Strother, Dozens of disabled workers face layoffs
after Huntsville flag manufacturer’s federal contract ends, WAFF
(June 28, 2019), https://tinyurl.com/y3dv82mm.

11
uniforms in Queens, New York. 7 And they make supplies for the Department of Defense in Kansas City,
Missouri. 8 All provide a stable occupational base for
blind and visually impaired persons.
Jobs provided through AbilityOne differ from
many of the positions available to the visually impaired in the larger marketplace. Unlike many private employers, AbilityOne nonprofits appreciate the
capabilities of the blind and visually impaired. The
jobs they offer build on the experiences that many
blind people have in other areas and industries. Accommodations absent from other employer settings
are built into the workplace. Alphapointe’s Kansas
City manufacturing plant, for example, has adapted
its manufacturing machines for visually impaired employees, implementing tactile labels and protective
procedures. Olsen, supra. AbilityOne employers, in
short, offer vocational opportunities that blind and
visually impaired persons would not otherwise have.
Again, concrete examples are illustrative. Consider the experience of TJ McElroy. While in the Marine Corps, TJ suffered a training injury that left him
blind. He received rehabilitative training through the
VA and ultimately became the first blind certified
Salesforce Administrator. With that certification, he
worked to train other veterans to be administrators.
John Crudele, How this NYC company created the perfect
environment for blind workers, N.Y. Post (Feb. 11, 2019),
https://tinyurl.com/yyrzef4m.
7

8 Patricia R. Olsen, He Operates Molding Machines. But He
Can’t See Them, N.Y. Times (Sept. 28, 2018), https://tinyurl.com/y7hpqkcx.

12
But when the training program ended, TJ found himself out of work. After months of looking for a job, he
finally found one at Bosma Enterprises, the abovementioned AbilityOne nonprofit, where he now trains
people with disabilities across the country to become
Salesforce Administrators. 9
Demarrious Bowens has a similar account. He
was born legally blind, and his early years were challenging. IFB eventually hired him as a sewing operator, and he has since transitioned to IFB’s Optical
Department. With the support of a supervisor, he became the third visually impaired person in the country to earn a certification from the American Board of
Opticianry. He is now working to prepare nine other
IFB Optical employees for the certification exam.
Cameron Black has also benefitted from the opportunities created by the AbilityOne program. When
he was young, Cameron lost his sight due to congenital glaucoma and underwent numerous eye surgeries
before he turned 13. As an adult, Cameron had no employment opportunities where he and his wife lived,
in rural Missouri, so they moved to Kansas City.
There, he started working for Alphapointe’s call center, where he is a now a supervisor. Cameron’s wife
stays at home with their two small children, and they
are entirely dependent on this job to support their
family.

9 Andy Ober, Bosma Launches Salesforce Training Program, Inside Indiana Business (May 18, 2018), https://tinyurl.com/y2xhk6ae.

13
AJ Johnson, a Navy Veteran decorated for his service during the Vietnam War, realized he was losing
his vision in 1992. He failed an eye exam and thus
was denied a chauffeur’s license. Finding employment
in the period following his vision loss was difficult.
Recognizing his skills and experience from the military, Alphapointe, an AbilityOne nonprofit, hired him
four years ago as a machinist, a position he continues
to hold.
Ken Mullins was a senior operations manager at
a Fortune 500 company when his vision started to deteriorate. He spent a year out of work, during which
he applied for 50 jobs across the country. Like many
other visually impaired persons, however, he did not
proceed past the interview process on account of many
employers’ hesitations about hiring people with vision
loss. He finally found employment with IFB’s Optical
Department as a production manager.
AbilityOne nonprofits offer thousands of people
like TJ, Demarrious, Cameron, AJ, and Ken stable
and fulfilling jobs. While they are capable of working
in similar jobs in the private sector, visually impaired
persons like these five are routinely turned away by
skeptical employers or discouraged by the lack of
basic accommodations. Nonprofits like Bosma, IFB,
and Alphapointe thus provide essential employment
options that would otherwise be unavailable.

14
B. AbilityOne nonprofits provide crucial
rehabilitation and other services to their
communities.
These nonprofits do more than just provide direct
employment opportunities to the blind and significantly disabled. With the revenue derived from selling products and services to the government, they also
offer the local blind and disabled communities a host
of invaluable services.
Bosma Enterprises, for example, provides rehabilitation services, like mobility and computer training, to persons adjusting to vision loss. 10 IFB
Solutions runs community low-vision centers, which
supply assistive technologies to the blind community. 11 Alphapointe has a summer camp and an afterschool program that teach visually impaired teens
computer skills through adaptive software. 12 Several
AbilityOne nonprofits provide transitional housing
and family support services to disabled veterans. Performance and Accountability Report Fiscal Year 2018,
U.S. AbilityOne Commission 3. And this is just a

10 Nick Werner, Blinded in Combat, Businessman Leads
Battle for Workplace Equality, Ball State University Magazine
(July 18, 2019), https://tinyurl.com/yxtau9rs.

Asheville’s older adults feel lucky to have the Community
Low Vision Center, WLOS (Nov. 26, 2018), https://tinyurl.com/y63agwmc.
11

12 Jessica Eley, Summer camp teaches visually impaired
teens computer skills through adaptive software, FOX4KC.com
(June 26, 2019), https://tinyurl.com/yxcaf57k.

15
small sample of the ways these organizations give
back in communities across the United States.
These services can change people’s lives. They did
for Cheryl Rayburn, who was diagnosed with Retinitis Pigmentosa when she was 16. After ten years in
the mortgage industry, she stopped working due to
her vision loss. She also gave up many of her hobbies.
Then she found Alphapointe, where she enrolled in
trainings in Braille, Orientation and Mobility, and
Adaptive Technology. She began cooking again, walking and traveling on her own, and babysitting her
grandchildren. Cheryl also started working at Alphapointe, where she is now a Low Vision Practice
Manager.
Chris Dunlavy was a successful attorney when he
was diagnosed with Retinitis Pigmentosa. After trying to hide his vision loss, he eventually gave up his
career. Then he learned about Bosma Enterprises. After completing Bosma’s comprehensive training program, funded through its AbilityOne contracts, Chris
was hired by Bosma to speak to companies around
Central Indiana about the benefits of hiring the blind.
With the benefit of these experiences, he has now returned to his legal career.
AbilityOne contracts thus do much more than
simply employ thousands—they help thousands more
receive training and rehabilitation to find jobs in
other parts of the marketplace. The actual number of
people who benefit from the program is hard to pinpoint, but it assuredly exceeds by a substantial margin the 43,000 who are directly employed.

16
III. The Federal Circuit’s Decision Undercuts
AbilityOne, Upending The Lives Of Blind
And Visually Impaired People Around The
United States.
The Federal Circuit decided in this case that a
contracting preference for veteran-owned small businesses takes priority over the JWOD’s requirement
that designated products and services be purchased
from AbilityOne nonprofits. As the petition for certiorari makes clear, that judgment is legally incorrect.
But the real-life consequences of the decision for the
blind community are also profound. Without this
Court’s intervention, thousands of blind, visually impaired, and significantly disabled persons will lose
their jobs or will lose access to critical services provided by AbilityOne nonprofits.
In practical terms, the Federal Circuit’s decision
will cause many AbilityOne nonprofits to lose their
contracts with the Department of Veterans Affairs.
Under the court’s interpretation, the VA must first
consider whether it can award contracts to veteranowned small businesses before it contracts with a nonprofit designated by the AbilityOne Commission. This
will lead the VA to purchase many products from veteran-owned small businesses instead of AbilityOne
nonprofits.
The termination of VA contracts would deal a
heavy blow to AbilityOne. In 2018, about 15 percent
of the products and services provided to the federal
government by AbilityOne nonprofits employing the
blind and visually impaired were for VA contracts and
purchase orders. The Federal Circuit’s decision calls

17
into question nearly all of these contracts, posing an
existential threat to the jobs of persons working on
them and to the essential services these contracts enable the nonprofits to make available.
The effects on certain AbilityOne nonprofits
would be especially significant. Bosma Enterprises,
for example, stands to lose $36 million each year—
nearly 96 percent of its annual revenue comes from
VA contracts. 13 IFB will potentially lose about $15.4
million each year, about 20 percent of its annual total. 14 Other nonprofits will face similar cuts.
For each of these organizations, the loss of revenue will mean layoffs: 137 jobs are threatened at IFB,
including 76 held by blind people and 15 held by veterans; 47 people have already been laid off. 15 The
Huntsville plant that used to make internment flags
lost its contract earlier this year because of the Federal Circuit’s decision, and dozens of its workers face
layoffs. Bosma will likely find itself in similar straits
given its reliance on VA contracts.
The repercussions of these cutbacks are real, not
abstract. At least three of the people discussed
13 Lindsey Wright, Bosma Enterprises Sues VA Over Contracting Changes, Indiana Public Media (May 25, 2017),
https://tinyurl.com/y548floo.

Richard Craver, 47 workers lose jobs after IFB loses contract appeal, Winston-Salem Journal (Sept. 10, 2019), https://tinyurl.com/y47b97zd.
14

15 IFB Solutions facing loss of 76 jobs for people who are
blind, Winston-Salem Chronicle (July 25, 2019), https://tinyurl.com/y5jrkp9s.

18
above—Demarrious Bowens, Ken Mullins, and Lee
Hartline—work on VA contracts and thus may soon
lose their current jobs because of the Federal Circuit’s
decision. Others are in similar situations, including
Antonio Arbelo, a Navy veteran who was wounded in
the line of duty and lost sight in one eye. After losing
sight in the other eye years later, he joined Alphapointe as a packer and machinist in the plastics
department, working on a VA contract that is now at
risk of termination.
Lisa Ison has already felt the effects of the Federal Circuit’s decision, as she was laid off when IFB
lost its VA contract. She was born with Optic Nerve
Dysplasia/Hypoplasia and navigates the world with
the help of her guide dog, Nori. After a difficult job
search, in which many employers did not want to accommodate her vision impairment, Lisa was hired to
work in IFB’s Marker Department. In 2016, she
moved to a position at IFB Optical. But Lisa lost that
job in September 2019 following the Federal Circuit’s
decision in this case.
In short, many blind and visually impaired persons are likely to lose their jobs if the decision below
stands. Given the immense challenges visually impaired persons face finding jobs in the marketplace,
supra Section I, the effects on these people’s lives may
well be profound and long-lasting.
The Federal Circuit’s decision also threatens to
roll back many of the rehabilitation programs that
AbilityOne nonprofits provide to their communities.
Bosma may no longer be able to provide rehabilitation

19
and training services, a major loss to the state of Indiana, as Bosma is the sole provider of comprehensive
rehabilitation programs for visually impaired persons
in the state. IFB will likely have to cut back on its
vision services and training programs. Other organizations will likely have to implement similar reductions.
The threatened cuts to valuable programs across
the United States reinforce the importance of this
case and the need for this Court’s intervention to correct the Federal Circuit’s mistaken interpretation of
applicable federal law.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari and reverse the
judgment of the Federal Circuit.
Respectfully submitted,
Thomas M. Bondy
Counsel of Record
Peter E. Davis
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-8400
tbondy@orrick.com
Date: October 11, 2019

